OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PAKISTAN’S
RECONSTRUCTION PROGRAM
IN EARTHQUAKE-AFFECTED
AREAS
AUDIT REPORT NO. G-391-12-007-P
AUGUST 16, 2012




ISLAMABAD, PAKISTAN
Office of Inspector General


August 16, 2012

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Jonathan M. Conly

FROM:                Office of Inspector General/Pakistan Director, Joseph Farinella /s/

SUBJECT:             Audit of USAID/Pakistan’s Reconstruction Program in Earthquake-Affected Areas
                     (Report No. G-391-12-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II.

The final report contains four recommendations to help improve the reconstruction program. On
the basis of the information provided by the mission in response to the draft report, we
determined that final action has been taken on one recommendation, and management
decisions have been reached on two recommendations. A management decision has not been
reached on one recommendation. A determination of final action will be made by the Audit
Performance and Compliance Division when the mission completes planned corrective actions
on the remaining recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Reconstruction Program Activities Were Making Progress .................................................... 3

     Roof Tiles Needed Replacement ........................................................................................... 5

     Completed Health-Care Facility Was Not Being Used ........................................................... 6

     Contractor Did Not Submit Financial Audit Reports to USAID ............................................... 7

Evaluation of Management Comments.................................................................................... 8

Appendix I—Scope and Methodology ..................................................................................... 9

Appendix II—Management Comments .................................................................................. 11
SUMMARY OF RESULTS
On October 8, 2005, a 7.6-magnitude earthquake struck the mountainous region of northern
Pakistan. In response to this disaster, the Government of Pakistan established the Earthquake
Reconstruction and Rehabilitation Authority (ERRA) to coordinate, monitor, regulate, and
oversee all reconstruction and rehabilitation activities in earthquake-affected areas.

In January 2006, USAID/Pakistan and the Government of Pakistan signed a $200 million
special objective assistance agreement that formalized U.S. support for Pakistan’s
reconstruction program. The objective of this agreement was to strengthen the health and
education sectors in the earthquake-affected areas. The largest component was a 5-year,
$120 million contract awarded to the construction firm Camp Dresser and McKee, International
Inc. (contractor). The purpose of this contract was to design, build, and furnish earthquake-
resistant schools and health-care facilities in Mansehra and Bagh Districts. In June 2011,
USAID/Pakistan extended the contract to June 2013 and increased its ceiling to $180 million.
As of May 2012, USAID/Pakistan had obligated $139 million and spent $114 million for the
program activities.

The contract specifies how many structures (77 total—61 schools and 16 health-care facilities)
should be built and how. The contractor must meet international engineering, architectural, and
seismic design standards so that the buildings may serve as safe havens for the communities in
the event of future natural disasters. The contractor has to furnish the buildings: the schools
with desks, chairs, chalkboards, bookshelves, cabinets, and electrical fixtures; the health-care
facilities with furniture and equipment for administration offices, examination rooms, kitchens,
and baths. Furthermore, the contractor should encourage community participation throughout
construction to help prevent and solve problems during construction, and address issues that
might affect the functioning of the facilities and their sustainability.

The Office of Inspector General (OIG) conducted this audit to determine whether
USAID/Pakistan’s reconstruction activities in earthquake-affected areas were being
implemented effectively.

USAID/Pakistan’s reconstruction activities were making progress (page 3). As of May 2012, the
contractor had completed 51 of the 77 facilities (36 schools and 15 health-care facilities) and
turned them over to the Government of Pakistan. ERRA officials inspected the completed
buildings to verify that they met the technical specifications and issued certificates indicating
transfer of ownership. The contractor turned the facilities over to the Government of Pakistan
within the estimated time and budget, and the government was using most for their intended
purposes. Construction was under way on 21 buildings (20 schools and a district hospital), and
the contractor was bidding on sites for 5 additional structures. For the audit, OIG visited 37
schools and health facilities between April 15 and May 16, 2012.

Although USAID/Pakistan was on track to achieve the program’s main goal, the audit identified
three areas for improvement:

   Roof tiles needed replacement (page 5). Although the contract specifies that materials
   should last and be easy to maintain, the contractor used clay tiles that were not suited to the
   environment. Several community members said the tiles do not stand up to local weather
   conditions, and the audit disclosed damaged tiles on 13 completed buildings.


                                                                                                1
   A completed health-care facility was not being used (page 6).               It has deteriorated
   considerably from disuse.

   The contractor did not submit financial audit reports to USAID/Pakistan (page 7). Four
   reports covering the contractor’s performance from 2007 to 2010 identified problems,
   including questioned costs of about $117,800 that related directly to USAID-funded
   activities.

To address the problems noted, the report recommends that USAID/Pakistan:

1. Implement a plan to verify that damaged roof tiles are replaced (page 5).

2. Implement a plan to utilize the newly constructed health-care facility in Neela But, Bagh
   (page 6).

3. Ask the contractor to submit past and future financial audit reports (including management
   letters) to USAID, and verify that internal control weaknesses were corrected (page 7).

4. Determine the allowability of, and collect as appropriate, questioned unsupported costs of
   $117,800 (page 7).

Detailed findings follow. Our evaluation of management comments is on page 8. Appendix I
presents the audit scope and methodology, and Appendix II contains the mission’s written
comments on the draft report in their entirety, without attachments.




                                                                                                2
AUDIT FINDINGS
Reconstruction Program Activities
Were Making Progress
According to the contract, the contractor would design, build, and furnish 77 earthquake-
resistant schools and health-care facilities in the earthquake-affected areas of Mansehra and
Bagh Districts.

As of May 31, 2012, USAID/Pakistan had completed, furnished, and turned over 51 of 77
facilities to the Government of Pakistan. After inspecting the completed buildings to verify that
they met technical specifications and were completed on time and within budget, ERRA officials
issued certificates indicating transfer of ownership.

The table shows the number of facilities completed, in progress, and planned.

             Status of Reconstruction Activities as of May 31, 2012 (Audited)
                              Status               Number of Sites
                       Completed                        51
                       In progress                      21
                       Planned                           5
                       Total                            77

To confirm reconstruction results, OIG made site visits to 37 schools and health-care facilities
between April 15 and May 16, 2012, in Bagh and Mansehra Districts. OIG observed that
schools were furnished with desks, chairs, chalkboards, bookshelves, cabinets, and electrical
fixtures and that health-care facilities had furniture and equipment for administration offices,
examination rooms, kitchens, baths, and electrical fixtures (as shown below and on page 4).




In Bagh, projects include a girls’ intermediate college with 22 classrooms in Rerrah (left) and a
boys’ high school under construction in Pinyali (right). (Photos from Camp Dresser and McKee’s
progress reports dated December 2010 and April 2012)




                                                                                               3
At left, a completed health-care facility in Khawaja Ratnoi, Bagh, accommodates wheelchairs
with the ramp and rails shown in the foreground; at right is a completed high school for boys in
Afzalabad, Mansehra. (Photos from Camp Dresser and McKee’s progress reports dated August
2010 and December 2011)

Except for one health-care facility discussed on page 6, all the completed facilities were being
used for their intended purposes and were occupied with students, patients, and staff. The
contractor estimated that enrollment in affected communities has expanded by 2,000 students
since 2006, with current enrollment estimated at 17,000 students. The contractor expected the
enrollment rate to increase to 28,000 over the next 5 years. Community leaders and ERRA
officials praised the reconstruction work and expressed gratitude for the U.S. Government’s
assistance. Important aspects of implementation included paying attention to design and
engineering and involving communities.

Design and Engineering. Because earthquakes occur regularly in the northeast region of
Pakistan, a primary objective of the contract’s design and construction process was to dissipate
earthquake energy without collapse. After incorporating community input on the designs,
USAID/Pakistan approved them and coordinated with ERRA on obtaining construction permits.

To design, build, furnish, and turn over schools and health-care facilities that met international
standards, the contractor conducted engineering assessments of sites to verify:

   Geotechnical data
   Slope stability
   The size of the area available for construction
   The availability of water, electricity, and sewage disposal services
   The availability of temporary facilities during construction

This advance work helped the contractor finish the facilities on time, within budget, and
according to international seismic building standards.

Community Involvement. As it does elsewhere, construction in Pakistan often grinds to a halt
because of problems such as disputes over land ownership, restricted access to the sites,
limited access to water and electricity, and construction workers brought in from elsewhere who
violate cultural norms in conservative rural areas. According to a contractor’s study, 65 percent
of ERRA (government-run) construction sites in the districts of Khyber Pakhtunkhwa have had



                                                                                                   4
work stoppages at some point, as have all ERRA sites in Bagh District. On a positive note, no
work stoppages occurred at USAID/Pakistan’s reconstruction sites.

To counter such challenges, the USAID contractor formed a team to mobilize community
leaders. Early meetings with community leaders helped establish priorities and identify issues
that might affect the construction activities. Community leaders helped settle land disputes,
arrange access to water, and work around electricity issues that commonly occur in construction
work. The leaders provided temporary school sites, construction staging areas, and storage
and advised on the design of facilities. With the help of community leaders, the contractor lost
no workdays. On completion of the facilities, many of the community committees formed school
management committees and parent-teacher councils to improve the quality of education.
Although progress has been made, the audit identified three areas for improvement.

Roof Tiles Needed Replacement
The contractor’s work plan requires building materials to be durable and easy to maintain.
Furthermore, the contract mandates a 1-year warranty period after the contractor completes
construction and hands over the facility to the Government of Pakistan. During this period, the
contractor is responsible for fixing problems or damage at completed buildings.

During the site visits, OIG noted damaged roof tiles (shown below) on 13 completed facilities—
10 with expired warranties and 3 still under warranty. Contractor officials thought that they had
selected the best tiles, but acknowledged clay tiles were not suited to the environment. Several
community members we met said the red clay roof tiles were easily damaged by weather
conditions in the region, were discoloring exterior walls, and were not available locally. The
damage noted during the site visits was on ten buildings whose warranty had expired. For
facilities under construction, the contractor told us that better roof tiles (concrete ones) would be
used. Contractor staff members also told us that damaged roof tiles at facilities where the
1-year warranty had expired would be replaced with better tiles at no cost to USAID.




These roof tiles at facilities visited in Bagh and Mansehra Districts are disintegrating from
exposure. (Photos by OIG, April 17, 2012)

We reviewed the contractor’s lists of items to repair and replace at 11 sites. During our visits,
we saw damaged tiles at three of these sites, which were within the warranty period. Yet the
lists did not include repairs at these sites. Therefore, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Pakistan implement a plan to ensure
   damaged roof tiles are replaced.



                                                                                                   5
Completed Health-Care Facility
Was Not Being Used
In October 2010, USAID/Pakistan completed the health-care facility shown below and turned it
over to the Government of Pakistan.




   This health-care facility in Neela But, Bagh, is not in use and has deteriorated since it was
   turned over to the Government of Pakistan. As shown above, roof tiles are damaged.
   (Photo by OIG, April 16, 2012)

However, OIG observed that the two-story health-care facility was not in use and has
deteriorated without maintenance. OIG noted damage to the roof tiles, a high-voltage electrical
cable running across the roof of the building, a broken window, no running water or electricity,
and mold on the interior walls.

According to the contractor, the Government of Pakistan was not occupying the new health-care
facility because it did not want to abandon the old one. The old facility was the subject of a land
dispute between the adjoining property holders, and the government thought vacating the
building might escalate the dispute. As a result, residents of Neela But, Bagh, could not use the
new facility, for which USAID/Pakistan spent $864,000. USAID/Pakistan should coordinate with
the contractor’s social mobilization team and the Government of Pakistan to use this new facility
for the benefit of the community.

Therefore, we make the following recommendation.

   Recommendation 2. We recommend that USAID/Pakistan implement a plan to utilize
   the newly constructed health-care facility in Neela But, Bagh.




                                                                                                   6
Contractor Did Not Submit
Financial Audit Reports to USAID
Pakistan Companies Ordinance Part XIV of 1984 requires foreign-based companies to prepare
annual financial statements. To comply with this ordinance, the contractor engaged a local
accounting firm to conduct four audits from 2007 to 2010. As part of the annual audits, the
accounting firm evaluated internal controls and other aspects of the contractor’s operations in
Pakistan.

However, the contractor did not provide the audit reports to USAID. Currently, the financial
audit for 2011 is under way. The audit reports for 2007-2010:

   Included management letters that identified internal control deficiencies, such as insufficient
   segregation of duties in the bank reconciliation process, travel vouchers lacking travel
   authorization, and problems with tax withholdings.

   Made recommendations to correct deficiencies.

   Questioned approximately $117,800 in unsupported costs related to large purchases made
   in cash, purchases missing approvals, incomplete receiving reports, and purchases made
   from vendors that were not the lowest bidders.

The contractor did not submit audit reports to USAID because the audits were not required
under the contract, and the contractor saw no reason to submit them. However, USAID paid for
the first audit report. Moreover, although the reports were not required, the deficiencies noted
related directly to the USAID-funded program. Thus, USAID should have obtained the reports
so it could have addressed any deficiencies.

The mission was not aware of the internal control weaknesses or the questioned costs
identified. Although OIG gave the mission the financial audit reports from 2007 to 2010, we
make the following recommendations.

   Recommendation 3. We recommend that USAID/Pakistan request that the contractor
   submit past and future financial audit reports (including management letters) to USAID
   and verify that internal control weaknesses were corrected.

   Recommendation 4. We recommend that USAID/Pakistan determine the allowability
   of, and collect as appropriate, questioned unsupported costs of $117,800.




                                                                                                7
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with the four recommendations in the draft report.
On the basis of the information provided by the mission in response to the draft report, we
determined that final action has been taken on Recommendation 2, and management decisions
have been made on Recommendations 1 and 3. Recommendation 4 remains without a
management decision.
Recommendation 1. USAID/Pakistan ensured that roofs with damaged tiles will be repaired at
all sites at no cost to USAID. The mission will complete a plan to make repairs using best
means, methods, and types of material by October 31, 2012. Accordingly, a management
decision has been reached.

Recommendation 2. USAID/Pakistan settled the land dispute. In April 2012, the new health-
care facility was in use. On July 10, 2012, the contractor’s social team visited this health-care
facility and confirmed that it was operational. Accordingly, final action has been taken.

Recommendation 3. USAID/Pakistan asked the contractor to submit all past and future audit
reports, including management letters. The mission’s Office of Acquisition and Assistance will
work with the Office of Financial Management and the technical office to verify that the internal
control weaknesses identified in those reports are corrected by October 2012. Accordingly, a
management decision has been reached.

Recommendation 4. USAID/Pakistan’s Office of Acquisition and Assistance, the Office of
Financial Management, and the technical office will investigate the unsupported questioned
costs and make a decision on them. A management decision on this recommendation will be
reached when USAID/Pakistan determines whether the questioned costs are allowed or
disallowed. Final action will occur when any disallowed amount is collected.

The Audit Performance and Compliance Division will determine final action on completion of the
planned corrective actions for Recommendations 1 and 3. The mission’s written comments on
the draft report are included in their entirety, without attachments, as Appendix II of this report.




                                                                                                  8
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s reconstruction activities
in earthquake-affected areas were being implemented effectively. As of May 31, 2012,
cumulative obligations and expenditures under the contract totaled approximately $139 million
and $114 million, respectively. The audit team reviewed performance information for October
2006 through May 31, 2012, and evaluated the major activities implemented under the contract.

In planning and performing the audit, the audit team reviewed the control environment at the
mission. We examined the mission’s fiscal year 2011 self-assessment of management controls,
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 1982 (as codified in 31 U.S.C. 3512), to check whether the assessment cited any
relevant weaknesses. We also reviewed applicable USAID policies and procedures pertaining
to USAID/Pakistan’s earthquake reconstruction activities, including Automated Directives
System Chapters 203 and 596.

The audit team assessed relevant internal controls used by the mission to manage the activities.
These controls included maintaining regular contact with the contractor, reviewing and
approving key decisions, performing site visits, and assessing reported results. The audit team
also reviewed the contractor’s control environment, including a review of procurement, quality
control, accounting functions, and the reporting of results.

In November 2008, OIG issued a performance audit, “USAID/Pakistan’s Earthquake
Reconstruction Activities,” Report No. 5-391-09-001-P. The audit included a review of activities
performed under the contract and made four recommendations to the mission. During this
audit, we reviewed the status of those recommendations and confirmed that the mission took
corrective actions.

The audit team performed fieldwork at the USAID/Pakistan mission, the contractor’s main office
in Islamabad, the district offices in Bagh and Mansehra, and select project sites in Pakistan from
March 19 through June 26, 2012.

Methodology
To answer the audit objective, we reviewed mission documentation used to manage and
monitor the activities. These documents included the country operations plan, performance
management plans, the contract agreement, reported results, financial reports, and site visit
reports. We also interviewed mission officials; staff at the contractor’s Pakistan office and U.S.
headquarters; and stakeholders including, teachers, medical professionals, community




                                                                                                9
                                                                                       Appendix I


members, and government administrators.         We also compared plan targets with reported
results.

For this project, the audit team considered the effectiveness to mean meeting the established
performance targets. The performance management plan included targets for the number of
buildings delivered, community participation, timeliness of construction, accessibility for those
with physical disabilities, construction in progress, and operations and maintenance plans for
completed buildings. The audit team also discussed earthquake-resistant building designs.

The audit evaluated whether the indicators used to measure the effectiveness of activities were
sufficiently results-oriented to permit their use in answering the audit objective. Through
discussions with USAID/Pakistan officials and the contractor, the auditors gained an
understanding of how (1) the indicators were defined, (2) data sources used, and (3) the flow of
data from the project sites to inclusion in monthly reports.

In assessing the status of the activities carried out during the first 5 years of the contract, the
auditors relied primarily on the contractor’s monthly progress reports from November 2006
through April 2012, supplemented by interviews conducted with USAID/Pakistan and contractor
staff about achievements and problems reflected in these reports.

To validate the results reported for the activities, the auditors checked key reported results
against supporting documentation maintained by the contractor. The audit team also visited 37
project sites to observe construction in progress, inspect completed buildings, speak with
community stakeholders, and verify reported results.




                                                                                                10
                                                                                              Appendix II



MANAGEMENT COMMENTS




MEMORANDUM


Date:           July 16, 2012

To:             Joseph Farinella
                Director OIG/Pakistan

From:           Jonathan M. Conly /s/
                Mission Director USAID/Pakistan

Subject:        Management Comments on the Audit of USAID/Pakistan’s Reconstruction Activities in
                Earthquake affected areas

Reference:      Report No. G-391-12-00X-P dated June 29, 2012



In response to the referenced draft audit report, please find below Mission management comments on the
recommendations included therein.


Recommendation No.1 We recommend that USAID/Pakistan implement a plan to ensure damaged
roof tiles are replaced.

Management Comments:
Mission Management concurs with the recommendation. The Technical Office is working with the
Contractor of the program (CDM Smith) to ensure that roofs with damaged tiles are repaired at all sites,
which were noted by the OIG representatives, at no cost to USAID. Different options will be investigated
for such repairs in terms of means, methods and types of materials best used to ensure that the repair is a
long-term fix for this issue. Final action on this recommendation is expected to be completed by October
31, 2012.


Recommendation No. 2 We recommend that USAID/Pakistan implement a plan to utilize the newly
constructed healthcare facility in Neela But, Bagh.



                                                                                                        11
                                                                                             Appendix II



Management Comments:
Mission Management concurs with the recommendation. Due to a serious sectarian dispute between the
adjoining property owners, the Bagh Department of Health wanted to keep some presence in the old
building to hold the land and hence the move to the newly constructed building by USAID was delayed.
In late April 2012, the new healthcare facility was put in full operation by moving all the main functions
from the old building, except for the Expanded Program on Immunization (EPI) section. This
achievement resulted from an agreement between the Azad Jammu & Kashmir Government Department
of Health, and the Azad Jammu & Kashmir Rural Support Program (AJKRSP). Under this agreement,
the AJKRSP has taken over the management of all Basic Health Units (BHU) in Bagh, including BHU
Neela Butt. The People’s Primary Health Care Initiative is to provide and manage staff and the budget
includes Pak Rs. 100,000 per year for building maintenance. Members of the CDM Smith social team
visited the site on July 10, 2012 and found the new BHU to be fully functioning. Site visit report is
attached as Annex- A.
Accordingly, corrective action has been taken; therefore we request closure of this recommendation upon
issuance of the final report.


Recommendation No. 3 We recommend that USAID/Pakistan request the contractor to submit past
and future financial audit reports (including management letters) to USAID and verify that
internal control weaknesses were corrected.

Management Comments:
Mission Management concurs with the recommendation. CDM Smith has been requested to submit the
portions of all past and future audit reports (including the management letters) which pertain to USAID
funded projects. The Office of Acquisition and Assistance (OAA) will work in collaboration with the
Office of Financial Management and the Technical Office to review and verify that the internal control
weaknesses identified in those reports were corrected. Final action on this recommendation is expected to
be completed by October 31, 2012.


Recommendation No. 4 We recommend that USAID/Pakistan determine the allowability of and
collect as appropriate questioned unsupported costs of $117,800.

Management comments:
Mission Management concurs with the recommendation. The Office of Acquisition and Assistance
(OAA) will work in collaboration with the Office of Financial Management and the Technical Office to
investigate the unsupported questioned costs. OAA needs additional time to research the matter and
therefore requests additional time to make a conclusive determination. The management decision will be
conveyed to OIG/Pakistan under a separate memorandum on or before September 30, 2012.




                                                                                                       12
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
